<html>
<title> - BROADCASTING BOARD OF GOVERNORS: AN AGENCY ``DEFUNCT''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   BROADCASTING BOARD OF GOVERNORS: 
                         AN AGENCY ``DEFUNCT''

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2013

                               __________

                           Serial No. 113-36

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
81-693                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable James K. Glassman, founding executive director, 
  George W. Bush Institute (former Chairman of the Broadcasting 
  Board of Governors, and former Under Secretary of State for 
  Public Diplomacy and Public Affairs)...........................     4
The Honorable S. Enders Wimbush, executive director for strategy 
  & development, National Bureau of Asian Research (former 
  Governor of the Broadcasting Board of Governors)...............    15
The Honorable D. Jeff Hirschberg, chairman, The Northeast Maglev, 
  LLC (former Governor of the Broadcasting Board of Governors)...    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable James K. Glassman: Prepared statement..............     6
The Honorable S. Enders Wimbush: Prepared statement..............    17
The Honorable D. Jeff Hirschberg: Prepared statement.............    25

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs:
  Letter from Dana Perino and Company dated June 21, 2013........    55
  Broadcasting Board of Governors: Absense of a Board Quorum.....    57
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Statement...................    61


         BROADCASTING BOARD OF GOVERNORS: AN AGENCY ``DEFUNCT''

                              ----------                              


                        WEDNESDAY, JUNE 26, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Edward 
Royce (chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. The 
committee is pleased to see that we have representatives of the 
BBG, including seated governors, like Victor Ashe, with us 
today. And we look forward to working together and continuing 
our dialogue as we move forward with legislative reforms.
    The title of this hearing is ``Broadcasting Board of 
Governors: An Agency `Defunct.' '' And today we meet to discuss 
how best to reform the Broadcasting Board of Governors, the 
agency which oversees U.S. international broadcasters such as 
the Voice of America and such as Radio Free Asia.
    Our international broadcasting has very rich history. East 
Europeans have told us how critical Radio Free Asia was, Radio 
Free Europe was at the time in clipping away at the Iron 
Curtain, in the ability, as Vaclav Havel says, to get 
information out, to operate as a free surrogate radio, to give 
the people the facts about what was actually happening on the 
ground in Eastern Europe that otherwise they would not have 
been able to obtain.
    And what is interesting in listening to the dialogue, the 
conversations about those at the time who were privy to 
listening to those broadcasts is to hear their explanations 
about their own thought process as they begin to question the 
totalitarian regimes that were controlling information. It 
indeed had a profound impact on the course of human events. It 
was quite an achievement with the end of the Cold War.
    And while the Voice of America aims to provide listeners 
with objective news and information about United States foreign 
policy, the purpose of the surrogate broadcasts, such as Radio 
Free Europe/Radio Free Asia, is very different. And that is to 
beam this information into closed societies, giving those 
citizens the information that otherwise they would never be 
able to access. Each broadcasting service is full of 
enterprising reporters who literally risk their lives for what 
they do. They risk life and limb. And I think all of us have 
followed stories about individual reporters who were killed in 
the line of getting the story in totalitarian regimes or 
reporting on human rights abuses. Reporters from these services 
really deserve to work under an organization that makes the 
most out of their talents. Unfortunately, more and more, it 
seems that the structure of international broadcasting clips 
their wings.
    Legislation in the 1990s established the Broadcasting Board 
of Governors as an independent Federal agency responsible for 
all U.S. non-military international broadcasting. Today, the 
BBG exercises authority over five distinct broadcasting 
services. Managed by a bipartisan and a part-time 
presidentially appointed board of nine individuals, the board 
is supposed to set the priorities and overall strategic 
direction of the U.S. international broadcasting. It is 
supposed to do it to allocate the resources and safeguard 
journalistic integrity. But plagued by vacancies and 
infighting, the BBG has trouble accomplishing any of that.
    In January, the State Department Inspector General depicted 
an agency with a dedicated staff attempting to serve, in their 
words, a dysfunctional structure. The BBG's ``dysfunction stems 
from a flawed legislative structure and'' stems from ``acute 
internal dissension,'' the report concludes, noting that a 
part-time board ``cannot, cannot, effectively supervise'' 
operations.
    Indeed, Secretary of State Hillary Clinton testified before 
the committee. And we recall her words, that the BBG ``is 
practically defunct agency in terms of its capacity to be able 
to tell a message around the world.'' She went on to regret 
that, in her words, ``We are abdicating the ideological 
arena.'' I agree with her assessment. The stakes are very high.
    As we speak, governments around the world have stepped up 
efforts to influence opinion abroad and to stifle dissent back 
at home. In Pakistan, small local radio stations broadcast 
messages that promote extremism and incite violence against 
every other minority group in Pakistan.
    The fight against terrorism and other threats to our 
national security must include a fight against bad ideas. If 
done well, the payoff of broadcasting is tremendous. With an 
information war underway, U.S. international broadcasting must 
be as sharp as ever. We must relearn some of the techniques. 
And this includes the broadcast entities themselves. The former 
head of Radio Free Europe once summed up their mission this 
way, ``Irritate authoritarian regimes, inspire democrats, and 
create greater space for civil society.'' Our goal here is to 
figure out how to do more of just that.
    And I will now turn to Ranking Member Engel for his opening 
remarks.
    Mr. Engel. Chairman Royce, thank you for calling this very 
timely hearing on an issue that impacts millions of people 
around the world, which is U.S. international broadcasting.
    Last month, I had the opportunity to speak at the 70th 
anniversary of the Voice of America's Albanian service. That 
event was a reminder that providing unbiased views and news to 
those who are denied access to information in their own 
countries remains as relevant today as it was when VOA began 
broadcasting during World War II.
    U.S. international broadcasting endures because it has 
maintained a commitment to journalistic integrity. The first 
principle of our broadcasting is to provide news that is 
``consistently reliable and authoritative, accurate, objective, 
and comprehensive.''
    In the years since the dawn of U.S. international 
broadcasting, the structures and technologies to deliver the 
news have changed dramatically. What began as VOA radio has 
evolved into five distinct organizations housed within the 
Broadcasting Board of Governors, or BBG. Today, these entities 
reach over 200 million people per week in 61 languages, radio, 
TV, the internet, and even mobile phones.
    While the BBG and its various sub-entities continue to play 
an important role in U.S. foreign policy, some questions have 
been raised about the management of the agency. An Inspector 
General report issued earlier this year found that the BBG was 
``failing in its mandated duties,'' and it attributed that 
failure to a flawed structure and strong internal dissension.
    One problem highlighted by the report is that the BBG 
board, originally intended to operate on a part-time basis, has 
in practice assumed full-time responsibilities of supervising a 
massive media organization with broadcasts to more than 100 
countries.
    This problem has been compounded by the large number of 
board vacancies, which has left the BBG without a quorum 
necessary to make official decisions. Currently, only four of 
the nine board slots are filled. These vacancies increase the 
pressure and responsibilities of the sitting governors to 
supervise the BBG. I hope the Senate will soon take action on 
the three nominees now being considered and that the President 
will nominate additional board members.
    In addition, questions have been raised about the lines of 
authority at the BBG. Voice of America, which is a Federal 
entity, reports to the head of the International Broadcasting 
Bureau while Radio Free Europe/Radio Liberty, a private 
grantee, reports directly to the board of governors. This can 
create confusion about who is in charge, resulting in 
unnecessary duplication and undermining accountability.
    Finally, many of us are concerned about the consistently 
low morale among employees at the BBG. Year after year, Federal 
surveys show that the BBG ranks among the bottom of all Federal 
agencies in terms of job satisfaction.
    In response to these and other issues, the administration 
has proposed the creation of a chief executive officer. The CEO 
would be selected by the board and be delegated some of the 
board's responsibilities, including the day-to-day management 
of the agency. This approach is supported by the Inspector 
General.
    As we examine ways to improve the governance of 
international broadcasting, it is vital that any reforms 
maintain the journalistic integrity that has been built over 
the last 70 years. This means maintaining a strong firewall 
between journalism and politics.
    I look forward to hearing a frank assessment from our 
witnesses on the challenges facing the BBG and on the board's 
proposal to create a CEO as well as other recommendations they 
might have for improving U.S. international broadcasting.
    I am a big supporter of VOA. I am a big supporter of U.S. 
broadcasting. Congresswoman Ros-Lehtinen and I many years ago 
had to fight for Radio Marti. I really think this makes a 
change.
    I have done a lot of work in Albania. The interesting thing 
for me is when Albania first opened up when I was here in the 
early 1990s and I went there, I asked them, what happened 
during the Cold War when you had the most repressive 
dictatorship? How did you know what was going on? And they said 
that the Voice of America was important, they all listened to 
it, they listened to television from Italy, but Voice of 
America was instrumental. I believe it was instrumental then. 
It was instrumental during the Cold War. And it is instrumental 
now.
    So, as the VOA adage goes, ``Tell the truth and let the 
world decide.'' I believe that.
    Thank you Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We are going to go now to our witnesses. We have been 
joined by three, who all previously served on the Broadcasting 
Board of Governors. The Honorable James Glassman served as 
Under Secretary of State for Public Diplomacy and Public 
Affairs before he became chairman of the Broadcasting Board of 
Governors from 2007 to 2008.
    Mr. Wimbush, the Honorable Enders Wimbush, is the Executive 
Director for Strategy and Development of the National Bureau of 
Asian Research. He was a member of the board from 2010 to 2012, 
but he was also Director of Radio Free Liberty from 1987 to 
1993 as the Iron Curtain fell.
    The Honorable D. Jeff Hirschberg, his 8-year tenure on the 
Broadcasting Board of Governors began in 2002. Before that, he 
worked at the Department of Justice, where he was special 
attorney to the deputy attorney general.
    So we welcome all three of you. And I am going to ask you 
to summarize your opening statements. And, without objection, 
the witnesses will have their full prepared statements made a 
part of the record. Members have 5 days to submit your 
statements or additional questions.
    And, Mr. Glassman, we will begin with you.

    STATEMENT OF THE HONORABLE JAMES K. GLASSMAN, FOUNDING 
 EXECUTIVE DIRECTOR, GEORGE W. BUSH INSTITUTE (FORMER CHAIRMAN 
   OF THE BROADCASTING BOARD OF GOVERNORS, AND FORMER UNDER 
  SECRETARY OF STATE FOR PUBLIC DIPLOMACY AND PUBLIC AFFAIRS)

    Mr. Glassman. Thank you.
    Mr. Chairman, Mr. Engel, members of the committee, 
congratulations on this hearing. Now is the time to think big 
about reforming not just the BBG but the entire public 
diplomacy effort of the U.S. Government.
    Today I want to make four points. First, this hearing's 
title refers to former Secretary Clinton's statement that the 
BBG is defunct. It is not. The BBG is one of the largest news-
gathering operations in the world. Last week, it announced a 
total audience of more than 203 million, a new record.
    The Inspector General said in January, U.S. Government 
broadcasting is characterized by ``journalism of the highest 
caliber.'' Second, while the BBG is alive and well, its mission 
is contradictory and confused. The law asks it both to be a 
tool of U.S. foreign policy and an independent, unbiased 
journalistic organization protected from government 
interference. In fact, the BBG's mission should be the same as 
that of the State Department itself: To achieve the specific 
strategic goals of U.S. national security and foreign policy.
    Good journalism is not the end but the means. This is my 
most important message to you. You need to resolve the 
contradiction by law and clarify the mission. It is simply 
unfair to call the BBG defunct or even dysfunctional when 
Congress and the Executive Branch have not provided the BBG 
with a clear sense of what they want it to be and what they 
want it to do.
    Third, structure. The BBG must be fully integrated into the 
foreign policy apparatus of the U.S. Government. The modern BBG 
was created in 1999 after the functions of the U.S. Information 
Agency were mostly folded into the State Department and 
international broadcasting was consolidated as a separate body: 
The BBG.
    The best way to remove any confusion about the BBG's 
mission is to put it back into the State Department under an 
Assistant Secretary playing close to the CEO role that the 
current board and the administration envision or as part of a 
resurrected USIA. You would have an advisory board composed of 
members with expertise in media technology and in disseminating 
ideas in general.
    High journalistic standards must be maintained for this new 
BBG. Propaganda simply does not work. All current broadcasting 
functions should be subsumed within the State Department, 
including those of the so-called grantees, such as Radio Free 
Europe. The distinction and functions among BBG entities has 
largely evaporated.
    At any rate, as a 2012 Hudson Institute report says, it 
should be made ``clear to the various broadcasting services 
that they are in the public sector and are part of the U.S. 
foreign policy team.'' This does not simply mean performing in 
a manner ``consistent with the broad foreign policy objectives 
of the United States,'' as the law states, but, instead, 
following actual strategic directives, for example, to convince 
the Pakistanis that they face an existential threat from al-
Qaeda.
    Fourth, in examining the BBG, this committee should broaden 
its sights and encompass the government's soft power function 
as a whole. In her statement to this committee in January, 
Secretary Clinton focused on the BBG in describing her 
frustration, as you noted, Mr. Chairman, with America's 
``failure to tell a message around the world.'' She said, ``We 
are letting the jihadist narrative fill a void. We need to get 
in there and compete.''
    That is true, but it is wrong to single out the BBG, which 
is only ambiguously part of the public diplomacy apparatus, for 
this failure. It is also disingenuous to point outward in 
assigning the blame when the responsibility ``to get in there 
and compete'' should lie within the State Department and the 
White House.
    When I was a State, we had a clear mandate from the White 
House, backed by support from the National Security Council, to 
wage a war of ideas and information and ideological struggle 
against the ``jihadist narrative'' to which Secretary Clinton 
refers. Now the term ``war of ideas'' has become anathema. The 
fact is we will never thwart our enemies and win the world's 
respect if we don't stand up for our values and oppose the 
ideology of violent extremism, just as we addressed communism 
during the Cold War.
    What we need is what I call a strategic public diplomacy; 
that is, soft power directed to achieve specific national 
security aims with the full commitment of a President and 
Congress that understand that these nonviolent efforts are as 
important as warfare.
    My own interest in this area began in 2003, when I was 
appointed to the Advisory Group on Public Diplomacy for the 
Arab and Muslim World. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Glassman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Glassman.
    Mr. Wimbush?

    STATEMENT OF THE HONORABLE S. ENDERS WIMBUSH, EXECUTIVE 
 DIRECTOR FOR STRATEGY & DEVELOPMENT, NATIONAL BUREAU OF ASIAN 
    RESEARCH (FORMER GOVERNOR OF THE BROADCASTING BOARD OF 
                           GOVERNORS)

    Mr. Wimbush. Mr. Chairman, thank you very much.
    Mr. Engel, thank you for this opportunity. I also want to 
applaud the effort of this committee to take a good look at the 
BBG and its relationship to international broadcasting.
    I have spent a long time on both the front lines and the 
back lines of international broadcasting. So let me give you my 
assessment clearly and succinctly. The BBG was a bad idea when 
it was created. And it is dysfunctional today.
    With five of its eight governors, including three of its 
four Republican members and both its chairman and his 
replacement as well as the alternate presiding governor, having 
resigned in frustration or disgust. The BBG cannot now function 
legally as intended because it now lacks an operating quorum.
    The BBG in my estimate has failed to provide U.S. 
international broadcasting with effective strategic guidance, 
with good governance, with economic efficiency, or any credible 
link, as Governor Glassman has just said, to U.S. foreign 
policy goals and strategies. And these are built into the BBG 
system.
    The BBG is dysfunctional in three but overlapping and 
interrelated ways. First, it is, as Mr. Engel pointed out, a 
melange of different kinds of organizations: Three Federal 
agencies and three 501(c)(3)'s. They operate on totally 
different sets of laws, conventions, and practices. They cannot 
be made to work. The only thing they have in common is that 
they do media.
    Second, the BBG's governance model could hardly be worse or 
more debilitating. It has no real leadership. The chairman's 
role is more honorary than functional, and his powers are 
nowhere spelled out. Congress originally intended the board of 
governors to oversee it but not to manage. But this has morphed 
into the BBG becoming a collective CEO, which has resulted in 
confused lines of responsibility and authority, oversight, and 
management. And the BBG is dysfunctional strategically. And 
this is the most important point. Our competitors have 
multiplied while their allies have retreated. One would think 
that American strategists would begin to sharpen their spears 
to compete in this world. Yet, the opposite seems to be 
happening, again due in large part to the incoherence of the 
BBG. Let me illustrate with an example.
    Nearly every year, the BBG receives requests from concerned 
Ibo-speaking Nigerians to inaugurate a broadcast service in 
their language. Ibo is spoken by 18-20 percent of the Nigerian 
population of 175 million, which means a media audience of 
somewhere between 30-35 million in an energy-rich, 
demographically young, geographically salient country. This 
would seem to be a no-brainer, but every year, it is refused. 
And why is this? Because rampant duplication of effort across 
the five networks vastly reduces the funding opportunities for 
new ventures, however strategic.
    I am confident that members of this board know that the 
Voice of America has a Russian broadcasting service. And you 
probably even know that Radio Free Europe and Radio Liberty 
also have a Russian broadcasting service. But the voice also 
has a Burmese broadcasting service, as does Radio Free Asia. 
Now, if this were the end of the list, we might find a 
reasonable explanation, but it is just the beginning. U.S. 
international broadcasting now operates two language services 
on different networks in each of the following languages: 
Albanian, Bosnian, Macedonian, Serbian, Armenian, Azerbaijani, 
Georgian, Russian, Ukrainian, Uzbek, Arabic, Dari, Pashto, 
Persian, Burmese, Cantonese, Khmer, Korean, Lao, Mandarin, 
Tibetan, and Vietnamese. And the VOA and the Office of Cuba 
Broadcasting both broadcast in Spanish, too. If you are 
counting, that is 23 duplications.
    Now, advocates of duplication say it is necessary because 
they do different things. I have been hearing this canard since 
I ran Radio Liberty. There is no location for surrogate or non-
surrogate broadcasting these days.
    Think about the new technologies. Think about crowd 
sourcing, crowd sourcing, which is the gathering of information 
through mobile devices. It is the classic surrogate instrument. 
Are we going to tell the Voice of America that it can't be 
doing this? It uses it everywhere. We need to get rid of this 
distinction between surrogate and non-surrogate.
    My four conclusions. One, get rid of the BBG as the 
organizing organization for U.S. international broadcasting. 
Two, separate oversight from management. Three, put one unified 
full-time professional management in place with jurisdiction 
over all U.S. international broadcasting. Four, create 
conditions for strategic decision-making. And, five, abandon 
the simplistic distinction between telling America's story and 
surrogate broadcasting. There are ways to get there. I would be 
happy to expand on those if asked.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wimbush follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Wimbush.
    We go now to Mr. Hirschberg.

 STATEMENT OF THE HONORABLE D. JEFF HIRSCHBERG, CHAIRMAN, THE 
  NORTHEAST MAGLEV, LLC (FORMER GOVERNOR OF THE BROADCASTING 
                      BOARD OF GOVERNORS)

    Mr. Hirschberg. Mr. Chairman, Mr. Engel, members of the 
committee, thank you for holding the hearing.
    I share some of the things that my colleagues have said up 
here. And a lot of it I just flat don't. My experience on the 
broadcasting board I think is a little bit different. I served 
there for roughly 8\1/2\ years. And during that period of time, 
we served for 2 years without a chairman because we were 
basically down to the final four, as we called ourselves.
    And, before that, the board actually did work collegially 
to really address major strategic issues and initiate certain 
services, such as Alhurra Television, which were much needed. 
There were no votes on that sort of thing. It was done by 
consensus. Democrats and Republicans agreed that it was needed, 
created a promotional video, took it in to the White House. The 
President of the United States bought it. And we were up and 
running within 5 months of funding through the appropriations 
process. And we went on the air February 14th, Valentine's 
present, 2004.
    So the board actually can work if you have a first-rate 
chairman and seven other people of good will who are willing to 
work together to accomplish the strategic goals of the BBG.
    Now, having said that, I understand that it looks like to 
me, at least, things have changed over the course of time. And 
now there is a push for reform.
    The current board and my successor board put out a 
strategic plan. And the President has accepted part of that 
strategic plan. OMB has supported it. And they have offered up 
a CEO of U.S. international broadcasting. While I may not 
believe it is necessary, I can support it. And I can support it 
as long as the CEO of U.S. international broadcasting is beyond 
and behind the firewall with the rest of the BBG board, must 
remain behind the firewall.
    The most important thing that U.S. international 
broadcasting has in its favor around the world is its 
credibility. So my suggestion to you--and I urge you that when 
you are considering making certain changes, keep in mind that 
the most thing that we have going for us is our credibility. I 
don't think you get that by destroying the broadcast entities 
in any way, shape, or form. I don't believe you get that by 
putting VOA and the rest of the entities into the State 
Department. I am not in favor of that.
    While there is so much to talk about, it is hard to know 
where to stop. I want to leave you with just one more thing 
before we answer questions. Assuming you get this 100 percent 
right and the structure is 100 percent correct and everybody is 
satisfied with whatever structure you come up with, it still 
only addresses half of the problem. The other half of the 
problem after structure and whatever reforms you want to put 
into place is that U.S. international broadcasting is 
substantially under-funded to do what it needs to do.
    Just one example, if you look at Al Jazeera in the United 
States today, they are welcome here because we have a First 
Amendment. They are spending roughly $750 million or $800 
million to stand up and network in the United States alone. 
That is over 100 percent of U.S. international broadcasting's 
worldwide budget.
    So my last thing that I want to share with you is that 
while there may be some need for reform in the Broadcasting 
Board of Governors itself, which I can support, the broadcast 
entities themselves are performing their jobs as well or better 
than they ever have. And, quite frankly, Voice of America MBN 
on one side, the surrogates on the other are just two sides of 
the same coin. And what you are talking about in mission 
statements is merely matters of degree.
    Thank you.
    [The prepared statement of Mr. Hirschberg follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Hirschberg.
    I do think, as we look at this issue, there isn't any 
question but that during the Cold War, we were particularly 
effective during a period of time. I remember I was in East 
Germany for a while and saw the impact of these broadcasts and 
saw how you did them wrong and how you did them right. The old 
bombastic West Germany broadcasts, people weren't interested in 
that. But when we recruited East German stringers and began to 
put those young reporters on the line, people were fixated on 
what they had to hear.
    Over the years, we I think learned certain lessons. The 
State Department wanted us out of Yugoslavia on the 
broadcasting. I remember a young Croatian with tears in his 
eyes telling me that the hate radio dominated all over the 
former Yugoslavia. And it was one of the reasons, the fact that 
we had never really had effective broadcasting in there. I had 
legislation to try to do that. And I believe we finally got 
that through. And it got it up and running the day before we 
started bombing.
    I think it is very clear over the years that also the 
concept of a mission of trying to offset the totalitarian and 
especially the hate broadcasts that are done in these 
societies, we tried to prior, far prior, to 9/11. We tried to 
get broadcasting up and running, the right type of 
broadcasting, in Afghanistan. I remember that struggle. I 
carried that legislation. Again, we didn't get that through 
until after the attack and after the death of the leader of the 
Northern Alliance.
    And I think that, as we go forward, clearly we have to 
learn from what we did right. And that is why Mr. Wimbush's 
testimony is of tremendous interest to me because during his 
tenure, we did something right. And it wasn't partisan. It was 
a nonpartisan effort to try to disseminate the facts about what 
was actually happening in that part of the world.
    Mr. Wimbush, would you like to extrapolate a little more? 
Because when you finished your testimony, you said if we wanted 
to hear more from you about specifics, you would be happy to 
give us those specifics.
    Mr. Wimbush. Yes. Thank you, Mr. Chairman. Like Jeff 
Hirschberg, I am not a big fan of putting it all within the 
State Department. It is one model. And I think you need to look 
at a number of different models.
    But I really think that this committee needs to hit for the 
fence. I think it needs to entertain a number of pathways to 
the goal you want, but for me, the one that stands out as far 
and away the most logical and coincidentally the one that will 
lead inevitably to the fewest instances of backsliding into the 
current BBG dilemma is to create one stand-alone media 
organization incorporating all of these existing media 
enterprises.
    Now, it puts a big load on your plate because that means 
defederalizing the Voice of America and the Office of Cuba 
Broadcasting. Frankly, this to me is, far and away, the best 
outcome that you could come up with.
    There are other models that you could look at that might 
put the Voice of America off by itself and maybe it goes into 
State or stands alone and the radio frees, the grantees, go in 
something else. What I would not do is organize in a way that 
enhances this distinction between telling America's story and 
doing surrogate broadcasting.
    When I was the director of Radio Liberty, one of the most 
important programs we put on the air--and I resisted it because 
a member of the BIB at that time told me he wanted something 
that told America's story.
    We put on a program from our New York office called 
Broadway 1776. It followed new emigres from Russia around the 
streets of New York into the PTA, into the stores, into the 
intellectual institutions, into the museums. It was the most 
fantastic piece of surrogate broadcasting because it was about 
them and it was one of the finest and most wonderful examples 
of telling America's story because it told how the whole thing 
worked.
    But look in contrast. Here is an announcement from the 
Voice of America, which is not supposed to be a surrogate 
station, although it has been practicing surrogacy for a long 
time.
    This is how they describe their new offering to South Sudan 
just 3 or 4 weeks ago, and I quote, ``With South Sudan in focus 
as its flagship program, the English language service will 
offer news for South Sudan, about South Sudan, and by South 
Sudan reporters.'' That is for the country, about the country, 
by the country people. It is simply impossible to get more 
surrogate than that.
    So the objective, your objective, I think, should be to 
create as many possible synergies as you can without creating 
these firewalls, these barriers, for the sharing of 
information, the creating of new images and messages, and the 
healthy function of the whole media organization as a single 
entity.
    Chairman Royce. Any further suggestions as long as you are 
here as a witness?
    Mr. Wimbush. In my written testimony, you will see that I 
make a number of suggestions, but I would defer to my 
colleagues at this point.
    Chairman Royce. Mr. Hirschberg?
    Mr. Hirschberg. I believe in taking on fights that you can 
have a chance of winning. For the 8\1/2\ years when I was on 
the board, we sort of took on fights that we thought we could 
win. Defederalizing VOA and OCB had been considered by the 
previous board for a number of years. And at that point in 
time, we decided we could not do it. And so, therefore, we 
chose to do other things in out discretion.
    I am not necessarily for a single broadcast entity. I think 
that the surrogates and VOA and MBN, on the other hand, do a 
very good job the way they are.
    I think there are a lot of things that can be done with 
respect to synergizing what they do. I think there are a lot of 
things that can be done vis-a-vis a management structure. And 
you could actually consolidate back office operations, 
consolidate IT, consolidate other things. That certainly can be 
done.
    Now, if you want to do that and create an entire broadcast 
or a single broadcast entity, that is your privilege. You can 
change the legislation to do that if that is what you want to 
do. I just don't see a need for it.
    Chairman Royce. Well, you did speak about resources.
    Mr. Hirschberg. I certainly----
    Chairman Royce. And our resources aren't infinite.
    Mr. Hirschberg. Correct.
    Chairman Royce. So the concept of merging the two, as Mr. 
Wimbush articulates, might not only lead to the added 
efficiencies but might lead to the ability to do more 
programming effectively as he ticks off the different dialects 
and languages that we do the broadcasting in. And there are 
probably 170, I would guess, or so, at least, around the world. 
The reality is that there is certain duplication there.
    So clearly if you can consolidate that, you might, 
especially given the fact that you do have a lot of information 
around the world in terms of straight news. This is a little 
different mission. And consolidating that with the personnel 
that have those abilities and that niche to speak to those 
audiences and having them in the same operation might be 
tremendously more efficient. I don't know.
    Mr. Hirschberg. It may be more efficient, Mr. Chairman, but 
in the meantime, the GAO report on this did not go far enough 
to analyze duplicated versus unduplicated audiences, who 
listens to which of those services, what the effect of those 
services is, what their audience reach is, what their 
credibility is. If you want to go that step and then make the 
judgment as to whether or not the language services ought to be 
eliminated one way or another, that is just fine.
    Chairman Royce. I am out of time. I will go to Mr. Engel. 
Thank you.
    Mr. Hirschberg. Okay.
    Mr. Engel. Thank you, Mr. Chairman.
    I would like to ask all three of you broad-based questions 
based on your written testimony, which I have read and what you 
have said. All three of you have had different views on what 
the fundamental mission on U.S. international broadcasting 
should or should not be.
    And correct me if I am wrong. Mr. Hirschberg, you said that 
our broadcasters don't do advocacy work.
    Mr. Wimbush, you believe the differentiation in missions 
between surrogates and telling America's story is no longer 
relevant.
    Mr. Glassman, you testified that the entity should be 
brought in line with U.S. strategic objectives.
    So these all seem to be quite different opinions. So let me 
just throw it out and say, amongst the three of you, is there 
any common ground on the over-arching mission of U.S. 
international broadcasting? Is it possible for broadcasters to 
provide authoritative, accurate, and objective news while at 
the same time advancing U.S. interests? Any one of you care to?
    Mr. Wimbush. Well, I would be happy to take the first crack 
at that. The mission, Mr. Engel, the mission of international 
broadcasting is to support U.S. foreign policy. I mean, I don't 
think anybody disagrees with that.
    Today, the connective tissue between what the BBG does and 
the programs that its networks create and the overall aims of 
the U.S. foreign policy is almost nonexistent. I think Jim 
Glassman mentioned that in his testimony. Somehow that to be 
revivified. It has to be made a clearer, more concise 
connection.
    And Jeff Hirschberg is also right that this has to be done 
within the context of good journalism. I think of it as 
journalism with an edge, but it is journalism.
    We have a reason for doing it. It is to support U.S. 
foreign policy and U.S. foreign policy objectives to support 
human rights, to advance freedom and enterprise, all of those 
things. But it has to be done within the context of good 
journalism. Without that--and we learned at Radio Liberty 
during the Cold War without the credibility that comes with 
good journalistic practice, you are blown out of the water 
almost immediately.
    Everyone can smell a bad story. And today if you drive 
through any village in the Middle East or Turkey or Asia and 
you look up at an apartment building and you see the satellite 
dishes, sometimes two or three, to a balcony, you understand 
that these people are not suffering from the regime's monopoly 
on information. They are receiving 200 to 400 channels of 
something. So credibility and context for U.S. international 
broadcasting is utterly critical in this explosion of media.
    People are asking more and more and more, ``All right. We 
have got the facts or what we think are the facts, but what 
does it mean?'' That is U.S. broadcasting's niche.
    Mr. Glassman. Mr. Engel, as I said in my testimony, the 
mission of the BBG should be to help achieve the specific 
strategic goals of U.S. foreign policy. That is not true today. 
It is true that the BBG in many instances, most recently, for 
example, in the Sahel, where they are working with DoD and 
State to increase broadcasting or in Somalia. In many cases, 
they are working toward the strategic goals. But that is not 
the main function or the main mission of the BBG today.
    And that is why I worry when Mr. Wimbush, with whom I agree 
in a lot of the things he said, talks about the BBG standing 
alone. It shouldn't stand alone. It should be part of the 
foreign policy apparatus.
    The reason that things worked during the Cold War was the 
entire U.S. Government was mobilized in its soft power elements 
to fight Communism. And we did a great job. That is not true 
with our soft power today at a time when I believe the problem 
is as urgent as it was then.
    Mr. Hirschberg. Mr. Engel, let me answer it this way. It is 
not that the BBG is devoid of conversations with the State 
Department. That is not true. The BBG constantly sets its 
broadcast priorities in conjunction, the formal consultation, 
with the State Department once a year during the BBG language 
service process. And, indeed, it is more iterative than that 
over the course of years.
    So yes, we have talked to the State Department. Yes, we 
have a mandate to coordinate how and where we broadcast with 
U.S. strategic goals. And the BBG actually does just that.
    Mr. Glassman. Could I just add, Jeff?
    Mr. Hirschberg. Yes.
    Mr. Glassman. I will never forget when I joined the BBG as 
chairman, our first consultation with the State Department. We 
go to the State Department, and there is the deputy. And we sit 
down with him. And he talks to us for a half an hour. And he 
said, ``Well, okay. Iran is a priority this year. Turkey is not 
a priority,'' just kind of listed things. That was the level of 
consultation we had with the State Department.
    I am proud to say that because I later became 
Undersecretary for public diplomacy and public affairs, we had 
more of a tie, but, really, these conversations are not a kind 
of serious strategic coordination with the State Department or 
the Defense Department or otherwise, although more of it is now 
going on.
    Chairman Royce. Thank you.
    We will go to Mr. Rohrabacher.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman. 
Thank you for holding this hearing. I remember quite well when 
you came to--I will make sure the chairman hears this. Mr. 
Chairman, I remember quite well when you came to Congress. Let 
me get the chairman's attention here.
    Chairman Royce. Yes, Mr. Rohrabacher?
    Mr. Rohrabacher. I am just reminding the witnesses that 
when you came to Congress, Radio Free Asia was your baby. And 
the chairman put an enormous amount of work in for a new Member 
of Congress to actually get a whole new system set up pass 
through Congress and in place was quite an achievement.
    And what we are saying today is that we can't just start 
things, let them go. And a good idea can sort of go astray 
unless we keep a good grip on the direction and have good 
oversight. What we are hearing today is that there has been a 
breakdown in accountability across the board in America's 
broadcasting capabilities and in terms of our governance 
operations anyway.
    And I think it is--look, I have had some experience on this 
as well. I mean, I was very concerned last year when the 
president of Radio Free Asia, for example, fired the head of 
the Tibetan Service. And here I am a senior member, Foreign 
Affairs Committee. And I tried to find out information about 
this. I was told by the RFA that they didn't have any 
responsibility toward Congress, that they were independent.
    Well, let's see. The Federal Government is paying for it. 
And the elected representatives of the people who are trying to 
oversee how money is being spent don't have any rights to 
information about decisions made within the organization. 
Something is wrong there.
    And what you are telling me today is that that type of 
oversight is broken down for the entire in terms of the 
broadcasting board is not functioning, much less functioning in 
our behalf.
    So we have got some work to do, Mr. Chairman, to follow up 
on the work you started a number of years ago. We heard a 
suggestion today that we might be folding all of these 
surrogate efforts, stopping the duplication by folding in all 
of the surrogate units into the Voice of America. Is that 
something they could work? And if so, how do we start that 
process? Mr. Wimbush, you may go forward on that.
    Mr. Wimbush. Yes. Thank you, Congressman.
    I am not advocating folding everything into the Voice of 
America. What I am advocating is creating a new organization 
that contains all of the language services that currently exist 
minus their duplicates. We simply can't do broadcasting in Ibo 
or a dozen other strategic languages for us today that were not 
strategic a decade ago because we have two language services 
that broadcast to Armenia, population minus----
    Mr. Rohrabacher. So you are not advocating that we fold it 
back into the Voice of America. But we have one system. So you 
are advocating we eliminate the Voice of America?
    Mr. Wimbush. No, no. I am not advocating that either. I am 
advocating creating an organization where you have enough 
flexibility--you can keep the brands within the organization 
because the brands have value. Those of you who want to think 
about it, think of the NPR model, ``The following program is 
brought to you by Radio International. The following program is 
brought to you by American Abroad Media.'' There is absolutely 
no reason we can't operate that way.
    Mr. Rohrabacher. Okay.
    Mr. Wimbush. But we need within the organization the 
flexibility to direct resources where it is strategically 
valuable at any given time and over the long period to 
eliminate duplication and to make sure that we get the balance 
between surrogate and non-surrogate right.
    Mr. Rohrabacher. Also, I would add to that that we do need 
to eliminate the duplication. And we also need to make sure 
that whatever we set up has accountability and that we have a 
breakdown of accountability in this system right now. Let me 
just note we are compared to Al Jazeera. Look, Al Jazeera is 
financed by massive oil or massive gas assets of the State of 
Qatar, and we can't even build a pipeline here, much less 
finance new things based on energy.
    How much do we spend totally on broadcasting? Do we know 
that anywhere?
    Mr. Wimbush. The total budget?
    Mr. Rohrabacher. Total budget for broadcasting with all of 
the surrogates, et cetera.
    Mr. Wimbush. When I joined the board in 2010, it was about 
$765 million. Today, with all of the various cuts and things, I 
think we are down to around 730, but they are----
    Mr. Rohrabacher. That is all of them? That is with the 
duplicates?
    Mr. Wimbush. That is everybody. That is the voice and the 
surrogates.
    Mr. Rohrabacher. Okay. Thank you very much.
    Chairman Royce. Thank you.
    I think in terms of languages, there are probably about 43 
over at VOA. And we are probably duplicating most of that. So, 
you know, 80-some if you look at it from the standpoint of the 
duplication.
    Mr. Sherman?
    Mr. Sherman. We don't broadcast in Japanese or German 
because those are countries of the free press. And they get 
plenty of good information at their own cost. What strategic 
interest are we achieving by broadcasting both television and 
radio in Greek? Anybody have any insight? Mr. Glassman?
    Mr. Glassman. None.
    Mr. Wimbush. None.
    Mr. Hirschberg. None.
    Mr. Sherman. Good. There is this idea of putting the 
broadcasters in State. There was a big political wrangle over 
the Benghazi talking points, but it illustrated one thing that 
I have come to have known all too well. And that is it takes 20 
drafts to get a few paragraphs out of the State Department. And 
by the time the process is done, most of the content has been 
leeched out. Imagine trying to run a radio service in which 
every broadcast has to be cleared by several different bureaus.
    We need to maintain enough distinction between the State 
Department and the broadcasters so that every news report isn't 
considered an official statement of the U.S. Government subject 
to 17 reviews. I think we need one agency overseeing this to 
avoid the duplication. We can't afford to have six different 
duplicative approaches, although if we had unlimited money, I 
would be for it.
    We need somebody, a chief executive, running this. I don't 
care whether he or she reports to a board or an Under 
Secretary. We have had some--Mr. Rohrabacher, he has just 
left--pointed out how there is a lack of accountability to 
Congress, which is quite distinct. I have spent the last 2 
years trying to get broadcasts in the Sindh language.
    Are any of you aware of a country more important than the 
world's only somewhat unstable nuclear power?
    [No response.]
    I don't see anybody responding because there is no 
response. You have got a large percentage of Pakistan that 
speaks in the Sindhi language. We are not broadcasting even in 
radio, but we are doing both Greek television and radio.
    You gentlemen have been on the inside. What is the attitude 
of the bureaucracy and the boards to ideas from Congress? Is it 
actual not-invented-here hostility or just total disinterest? 
Mr. Hirschberg?
    Mr. Hirschberg. Neither one of those. Neither one of those.
    Mr. Sherman. I have been here 17 years. I haven't seen any 
suggestion taken by the broadcasters unless it was passed by 
both houses of Congress and binding on them in law. But, Mr. 
Glassman, do you have a different view?
    Mr. Glassman. Well, I think you brought up Greek. I think 
one of the reasons that Greek continues to be broadcast is 
because there are Members of Congress who insist upon it. I can 
only speak for my tenure as chairman and when I was--when Jeff 
Hirschberg was on the board and we had a terrific board and a 
really committed board.
    I think we paid a lot of attention to Congress. I know I 
did. And I think certainly Mr. Hirschberg did. That is where 
our money comes from. That is where there is a lot of brain 
power that is helpful to us. So I really think there is----
    Mr. Sherman. I am more familiar with Mr. Rohrabacher's 
experience where you ask for information and you are just told, 
``Well, if you can get an act of Congress passed through both 
houses compelling us to give you the information, then we will 
give it to you.''
    Mr. Hirschberg, do you have a different view?
    Mr. Hirschberg. That just wasn't our attitude when I was on 
the board. It was just not--it just did not work that way. 
Congress talked to us about and different Members about what 
their desires were.
    Mr. Sherman. This committee----
    Mr. Hirschberg. And when we sent up a reprogramming notice, 
which was $750,000 or more, Congress got to say yes or no, in 
whole or in part to anything we wanted----
    Mr. Sherman. If I can reclaim my time? This committee 2 
years ago passed an amendment to broadcast in the Sindh 
language. No steps had been taken to do that, even to do it on 
the internet, by any of the broadcasters. I am sure that if we 
had enacted a State Department authorization bill through the 
entire process and it made it almost a criminal offense not to 
follow the law, then they would have followed it. But a mere 
vote of this committee got no response.
    Do any of you have any ideas on how I can get broadcasting 
in the Sindhi language?
    Mr. Wimbush. Yes. You can cut some of the duplicate 
broadcasts that currently go out so that there is money to do 
it. I mean, we are talking about finite dollars here.
    Mr. Sherman. Amen. Thank you. My time has expired.
    Mr. Wimbush. Very easy to do.
    Ms. Ros-Lehtinen [presiding]. Thank you very much.
    The Chair will now recognize herself for 5 minutes. The 
mission of the board of broadcasting, Broadcasting Board of 
Governors, is to inform, to engage, to connect people around 
the world in support of freedom and democracy. And when 
analyzing the effectiveness of BBG programs, we must do so 
through the prism of those founding principles that are 
essential to fulfilling the mission of the Broadcasting Board 
of Governors. However, we must also be aware that BBG is 
created and operated in many closed societies, where they have 
dictatorial rule with marginal resources. So I understand that 
it is not a perfect system.
    But I do believe strongly that the mission of the BBG is 
vital to advance U.S. foreign policy objectives, to promote 
democratic principles, and be a resource to those living under 
these repressive authoritarian regimes. And I have seen the 
success of BBG programs firsthand with Radio and TV Marti.
    In '83, as we know, President Reagan signed the Radio 
Broadcast to Cuba Act. And when commemorating this event, 
President Reagan commented that ``This action will finally let 
the Cuban people hear the truth from the outside world.'' 
Through Radio and TV Marti, we have been able to publicize and 
showcase to the world the atrocities that occur in Cuba and the 
people know their voices are being heard and that they are not 
alone because the United States will stand by them in their 
struggle for freedom. However, serious problems continue to 
occur in Radio and TV Marti.
    Programming needs to improve. The transmission interference 
remains a major obstacle to getting the signal into all parts 
of the island. It is good in some area, not good in others. 
Radio is good overall, but TV continues to get jammed because 
we have not modernized the way that they we transmit that 
signal and have not been operating in the way that we should so 
that we can expand access of this broadcast throughout the 
island.
    So one of my first questions when I finish is, what are we 
doing to improve the transmission into Cuba of the TV Marti 
signal so that everyone can receive it, understanding that 
Castro will, of course, do everything within its power to jam 
it and to block it.
    And, staying in the Western Hemisphere, I am concerned that 
countries such as Venezuela and Ecuador continue to crack down 
and suppress independent journalists. I believe this gives BBG 
an excellent opportunity to strongly support a civil society 
and journalists who are trying to use the media to get the word 
out. In Venezuela, that is practically unheard of and Ecuador 
with the new media law that they have adopted, ironically 
enough, in the same week that Snowden writes a letter to 
Correa, the President of Ecuador, seeking asylum. And he is 
seeking asylum in the very country that does everything to 
suppress press freedom. But that is a fight for another day.
    So do you think that VOA Latin America can fill the vacuum 
in these countries that have shut down independent media and 
that VOA can be a resource there? And we have seen instances 
that BBG has been unable to live up to its objectives and has 
greatly under-performed in its role to promote democratic 
reforms. In the hearing that I held just last week in Middle 
East and North Africa about the election results in Iran, one 
of our witnesses talked about the inadequacies of VOA's Persian 
News Network.
    So if we could start with--I think we will just have time 
for Radio and TV Marti.
    Mr. Wimbush. I would be delighted, Madam Chairman. I happen 
to be one of the big fans of Radio Marti for the very simple 
reason that Cuba is in a major transition. And sometime in the 
near future, it is going to pop back into its hemisphere. And 
it is going to be a major player.
    It is very much in America's strategic interest to shape 
that transition and to aid it any way we possibly can.
    Ms. Ros-Lehtinen. How can we fix the transmission problem 
so that the signal gets to the people?
    Mr. Wimbush. This is something I can't answer. This is an 
engineering question. But if resources are available, I am sure 
that a way to do it can be found.
    Ms. Ros-Lehtinen. Gentlemen?
    Mr. Glassman. Madam Chair, I would just add that I 
understand, just from a press release, that the BBG is using 
other means to get into Cuba; for example, I have never heard 
of this before, but paper thumb drives that have recordings 
from Radio and TV Marti transmissions. I think this is a great 
idea. And, actually, it is a good example of how the BBG should 
work more broadly----
    Ms. Ros-Lehtinen. And Yoani Sanchez, the blogger, has been 
very active in trying to get more people to come in with those.
    Mr. Glassman. Absolutely.
    Ms. Ros-Lehtinen. Thank you very much. My time is up.
    Mr. Connolly. Madam Chairman?
    Ms. Ros-Lehtinen. Yes?
    Mr. Connolly. I would ask unanimous consent that the panel 
be able to respond to the chairwoman's thoughtful questions----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Connolly [continuing]. In such time as may be required.
    Ms. Ros-Lehtinen. Well, thank you very much.
    So, then, I had asked about Venezuela and Ecuador just as 
examples of countries that have clamped down severely on press 
freedoms. Do you see an expanding role of VOA there?
    Mr. Wimbush. Yes. And the current board, in fact, has made 
a real effort to expand its role into Latin America. I am a 
year away from the board. So I am not exactly sure where they 
are going, but the board's strategy director, Bruce Sherman, 
who came from Radio Marti and speaks fluent Spanish, identified 
almost immediately a 24/7 satellite that could be used.
    Ms. Ros-Lehtinen. That is great.
    Mr. Wimbush. The concept we have tried to put in place, 
which comes right to your point about how do we influence Latin 
America would be to use this wonderful facility in Miami, which 
is also the home of Latin American banking, Latin American 
media, use that as the hub for Latin America work and put Marti 
at the center of it, rather than on the periphery, and use 
that.
    Ms. Ros-Lehtinen. Thank you.
    And then the last question was on the inadequacies of our 
VOA Persian News Network so that even when the President was 
addressing the Iranian people, he opted to use BBC Persian 
because the VOA Persian News Network was not transmitting in 
the way that it should. What can we do for that?
    Mr. Wimbush. Well, again, I am happy to address that one. 
When I joined the board in 2010, the very first effort I made 
was to analyze the Persian News Network. And I produced a 
fairly extensive report on it.
    The Persian News Network can produce some startlingly good 
programming and some startlingly bad programming. The problem 
is it is going to be extremely difficult to fix within the VOA 
structure because of the employment laws and all of the 
conventions that go along with being part of a Federal agency.
    It was not put together correctly in the beginning. And now 
they are paying the price because it is going to be very hard 
to change.
    Ms. Ros-Lehtinen. Thank you, gentlemen.
    And now I would like to turn to Mr. Connolly--he is such a 
charmer--for all the time he wants.
    Mr. Connolly. Sorry, there, Mr. Yoho. Thank you, Madam 
Chairwoman, who is my friend. And welcome.
    Stepping back just a little bit, you all served on the 
board. We have an IG report that says that the BBG is failing 
in its mandated duties and that that failure came from a flawed 
legislative structure and strong internal dissention. Would you 
agree with those findings?
    Mr. Wimbush. Yes.
    Mr. Glassman. I would not agree with those findings if they 
were made about the board on which I served. I think the board 
on which I served had the mission problem, which I described, 
but we had dedicated, committed members, who showed up, who 
devoted tremendous amounts of their time. And Jeff Hirschberg 
is a good example, traveled a great deal minding the store at 
Radio Free Europe and Radio Liberty. So I don't think that is 
true.
    Now, part of the problem is that this board has not had a 
chair for a year and a half. And whether the chair has 
stipulated powers by law or not, you have got to have a leader. 
And there are numerous vacancies.
    Mr. Wimbush. Fair point.
    Mr. Glassman. There are apparently according to the OIG 
report----
    Mr. Connolly. And I am not sure the OIG report was 
necessarily, Mr. Glassman, necessarily laying the blame at the 
BBG board. I think it was talking about the whole structure. 
And it was also, frankly, holding us accountable for inadequate 
or maybe inappropriate legislative structure, which I would 
want to come back to.
    Mr. Hirschberg?
    Mr. Hirschberg. Well, if you want to change the legislative 
structure, you are more than welcome to do it. I didn't think 
there was anything the matter, really, with the BBG to begin 
with and still don't.
    Mr. Connolly. Okay.
    Mr. Hirschberg. All right? Two, vis-a-vis the IG's report, 
I can't speak to that. That is a current board issue. And I am 
not going to be critical of my successors in any way. There are 
enough people that are doing that now.
    Mr. Connolly. Well, okay. Let's step back. Listening to 
your testimony, looking at the IG report, looking at a GAO 
report, we have a lot of duplication. We have a lot of 
redundancy. We are in an era of contracting resources, not 
expanding resources, including for diplomacy. Is this not a 
time to restructure BBG, streamline it?
    I mean, you all concurred with Mr. Sherman's question that 
we are still broadcasting in Greek, but we are not broadcasting 
in Sindh.
    Mr. Hirschberg. Right.
    Mr. Connolly. And that seems to be a misplaced priority.
    Mr. Glassman?
    Mr. Glassman. Yes, sir. And I think that is true.
    I wouldn't get carried away with the duplication issue. I 
think it is more a strategy issue. Someone needs to make a 
decision. If you have got $720 million to spend or whatever the 
number is, what are the important places that we should put our 
resources?
    Mr. Connolly. Well, let me interrupt you. The GAO report 
says two-thirds of the BBG's language services overlap with 
some other language service.
    Mr. Glassman. Right.
    Mr. Connolly. That is a big overlap. It identified 23 
instances of overlap involving 43 of BBG's 69 services.
    Mr. Glassman. Right, Congressman. However, that does not 
mean that they are all saying the same words at the same time.
    Mr. Connolly. No.
    Mr. Glassman. You know, NBC has MSNBC, CNBC, NBC, the Golf 
Channel. They are trying to achieve different kinds of things. 
I am not saying there is not overlap. What I am saying is that 
there is a bigger problem here, which is a strategic problem.
    Mr. Connolly. A fair point. And sometimes overlap may 
actually be a good thing.
    Mr. Glassman. Right. Agree.
    Mr. Connolly. Certainly as somebody in the political 
profession, I have learned repeat, repeat, and repeat again if 
you want to penetrate consciousness, especially in today's 
diffuse media market.
    Mr. Glassman. Right. I see----
    Mr. Connolly. There could be a reason for that.
    Mr. Glassman. I see nothing wrong with having--if Iran is 
an important target of American strategy----
    Mr. Connolly. Fair point.
    Mr. Glassman [continuing]. I see nothing wrong with having 
Radio Farda, Persian News Network, VOA Radio beamed into Iran. 
I wouldn't mind having, actually, several other stations, 
including an entertainment station, beamed into Iran----
    Mr. Connolly. Right.
    Mr. Glassman [continuing]. But not into Greece, not into 
Turkey, not into some of the other places.
    Mr. Connolly. Right. Fair enough.
    Mr. Wimbush. Mr.----
    Mr. Connolly. Mr. Wimbush?
    Mr. Wimbush. Yes. Congressman, I agree entirely with Jim 
Glassman on getting strategic. We simply don't have the 
flexibility within the board structure as it exists to get the 
right program to the right audience on the right platform. We 
don't have it. And I will back that up with the proof.
    All of the duplication which you see today, virtually all 
of it, existed in 1998, when the board was created, 1994-1998. 
Not a single board has dealt with this in any systematic, any 
reformist fashion. I can't conclude anything but that the 
structure of the board has to relate to that failure.
    Mr. Connolly. Mr. Hirschberg?
    Mr. Hirschberg. I always found that in a time of declining 
resources, the biggest problem that the broadcasting board and 
its entities have is there are too many language services 
chasing scarce dollars. So I am for helping the board in 
helping the broadcast entities reprioritize some of this 
because you can't be all things to all people.
    And even when we tried over the course of time, by the way, 
to cut some services from our broadcast entities, including 
some that were overlapping, you know, Congress said no to us. 
And in another case that I can recall very well when we didn't 
even ask for a service, Congress mandated it. All right? Now, 
that is your perfect right, but, nonetheless, I don't see that 
as necessarily a fault of BBG management.
    Mr. Connolly. Yes. And I want to repeat. The IG report said 
that some of the fault lies here with the legislative 
structures we have created, which I think confirms the point 
you are making. Now, we have to take responsibility for our own 
actions or lack thereof.
    But let me end. I don't want to abuse the unlimited time I 
have. My colleagues are waiting. But can I just ask your 
thoughts about--okay. Let's take that legislative structure 
concept. If we were starting over again, if we were to look at 
legislative reform, taking cognizance of the changed world and 
contracting resources, what would you recommend Congress 
consider doing, Mr. Glassman?
    Mr. Glassman. Integrating the BBG into the overall foreign 
policy structure. You know, 10 years ago, I was on the 
Djerejian group, which looked at public diplomacy in the Arab 
and Muslim world. And we concluded this: ``Broadcasting 
represents nearly half the spending on public diplomacy. It 
must be part of the public diplomacy process, not marching to 
its own drummer with its own goals and strategy sources of 
funding and board.''
    And that was true 10 years ago. It is true today. How you 
structure it, there are many different ways to do it. You could 
put it into the State Department. You could resurrect USIA. You 
could have it as a separate entity as Mr. Wimbush wants, as it 
is today, but directly reporting to somebody and responsible 
for someone who is in the foreign policy apparatus.
    Mr. Connolly. I was very struck by your testimony when you 
used the phrase ``strategic drift'' and you told that story 
about the strategy session with the Undersecretary or Deputy 
Secretary. It is an amazing story, actually, when you think 
about it.
    Mr. Wimbush?
    Mr. Wimbush. Mr. Connolly, I don't want to leave the 
impression that I think that U.S. international broadcasting 
should report to no one. I just don't think it should report to 
the State Department.
    The challenge for this committee is going to be how to 
create the logical foreign policy anchor for international 
broadcasting within the foreign policy security community. My 
own view is this should be the National Security Council, but 
you have to figure out what that connective tissue looks like.
    Your question, if you were going to start over, what would 
you do, it is a no-brainer. If you were going to start over, 
you would create one organization. And I urge you to start 
over.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Connolly. Madam Chair, would we allow Mr. Hirschberg to 
answer?
    Ms. Ros-Lehtinen. Yes, absolutely.
    Mr. Connolly. And then I am done. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Okay.
    Mr. Hirschberg. I don't share Mr. Glassman's view of having 
this go to the State Department. I don't share Enders' view of 
having it go to the NSC. I do believe that you should have an 
independent agency and entity, no matter what you call it. And 
if you have to rebrand something, which is clearly needed here, 
it ought to be rebranded. The BBG really needs to be rebranded.
    I think that there is enough connectivity to our strategic 
interests as a country now. If you want to change that 
legislatively, you can always do it, but I don't share the view 
that somehow this is broken, somehow it is not under foreign 
policy community. Its goals are a little different. Its 
objectives are a little different. But they are complementary 
to everything else. And if someone wanted to move the needle, 
all of these other programs in the State Department and all the 
rest of them haven't done much. Why add VOA to it?
    Mr. Connolly. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Connolly. And I owe you more chocolate.
    Ms. Ros-Lehtinen. Okay. Thank you.
    Dr. Yoho is recognized. Thank you, sir. Thank you.
    Mr. Yoho. Thank you, Madam Chairman. Thank you, guys, for 
being here today. And I would like to thank you all for being 
here today.
    I have a healthy respect for the history of the Voice of 
America's related programs from World War II to the fall of 
communism. You can't help but feel nostalgic about these 
programs. And I commend that whole service.
    However, in today's fiscal and technological climate, I 
want to make sure that we are maximizing the use of the hard-
working Americans' tax dollars and ensuring that we aren't 
subsidizing the broadcasting of policies that are counter to 
our goals. And I have a few questions related to that.
    And you are talking about we lack funding. And that would 
be one of the big things that help you, but, yet, in 2011, 
there was a study commissioned by BBG by Deloitte. And they 
recommended consolidation of the administrative elements of the 
surrogate broadcast services, RFE/RL, RFA, and MBN. And the 
proposal noted that that would save anywhere from $9 million to 
$14 million a year, but, yet, it hasn't been done the way I 
understand it.
    When you commission a study, obviously that costs money. 
And then you get the recommendations. And we don't follow 
through. And we want more money. It seems like we would follow 
through on that. So I would like to hear your thoughts on that.
    And then what kind of assessments are made of the 
listenerships? Is there an audience for these programs? 
Obviously we are broadcasting in Greece but not in the other 
areas where we need to be in the Arab world. And I understand 
the communication tools, like the internet, et cetera, that 
were granted, that we take for granted here, but may not be the 
most free and open in these other countries, hence the need for 
radio broadcasts. Has there been a recalibration of your 
distribution that takes into account newer, cheaper 
communication methods? And I would like to hear your thoughts 
on that.
    Mr. Wimbush. Dr. Yoho, a couple of thoughts. Yes. On the 
board that I participated in, a study was done to look at 
consolidating the grantees the radio free, so to speak. To me, 
it was pretty conclusive. It makes not a whole lot of sense in 
my view to have Radio Free Europe, Radio Liberty, MBN, Radio 
Free Asia, all with their own HR departments, their own 
communications departments----
    Mr. Yoho. Right.
    Mr. Wimbush [continuing]. Their own newsrooms. I mean, this 
is just rampant duplication that should have been fixed a long 
time ago.
    Mr. Yoho. Why hasn't that been followed up on?
    Mr. Wimbush. It was killed by the board itself.
    Mr. Yoho. Okay.
    Mr. Wimbush. Within the board, there was a majority in 
favor of it. It was killed and delayed by one or two of the 
members.
    Mr. Glassman. Congressman, could I comment----
    Mr. Yoho. Yes, sir.
    Mr. Glassman [continuing]. On your question about research? 
The BBG does an excellent job of audience research in some 
really tough places. However--and this gets to the strategic 
question that I have been emphasizing. The real question is, 
what are you doing with these audiences? What is the point? Is 
it just to gather a big group of people or is it to do 
something with them? And it is my belief that it is to do 
something with them, which is to say to persuade them.
    And there is not a lot of research on that. It is not easy 
to do for one thing. But I also don't see it as the major 
mission of the BBG. And I think the mission needs to change. 
Then the research should follow.
    Mr. Yoho. And you say that comes from the State Department 
on policy because if we look in the Arab world right now in the 
Arab Spring--and we have got a whole different dynamic over 
there. You know, in the old days when you had Mubarak, you 
could kind of I don't want to say predict, but you could 
predict how people were going to respond. But today it is a 
whole different message.
    You know, your research should be tailored, I would think, 
to reaching that younger crowd and getting that message out. 
You know, I know it goes back to Mr. Hirschberg saying money, 
and I know that is one of the big problems up here is money, 
money, money. So we have got to be super efficient at 
everything we do.
    One of the things that you guys touched about was, why 
isn't there more cohesion between the mission and our policy to 
help stimulate what you were talking about: The target 
population? Where is that being prevented? Is it in the 
management of the BBG or is it coming from the State Department 
or is it coming from us, the lack of that cohesion?
    Mr. Glassman. It is not part of the culture of the BBG 
except in certain instances. And I commend the BBG for that. I 
mentioned the Sahel, and there are several others where they 
are cooperating very well with State and with DoD, but overall 
the BBG does not see it as its mission. Let me just use one 
example.
    It seems to me that it is in the national interest to 
persuade Iranians to oppose the development and deployment of 
nuclear weapons. We have got a lot of lines into Iran as a 
result of our BBG broadcasting. And, yet, no one is directing 
the BBG. And I think the BBG under the current system would be 
quite reticent to go along with a directive from the State 
Department or the NSC or elsewhere to try to persuade Iranians. 
But I think that is actually what should be done.
    Mr. Yoho. Okay. Thank you.
    Mr. Hirschberg. Well, if you do that----
    Mr. Yoho. Madam Chair, can I have----
    Ms. Ros-Lehtinen. Absolutely.
    Mr. Yoho. Thank you, ma'am.
    Mr. Hirschberg. If you do that, then you had better change 
the mission of the BBG and you had better change the----
    Mr. Glassman. That is what I have said.
    Mr. Hirschberg. Just let me finish, Jim. And you have to 
change--I know you did. And let's change the legislative intent 
and the legislative scheme because right now the BBG does not 
do messaging, does not do advocacy. It is a pure journalistic 
mission. Hard truth and information will show people what a 
democratic society is all about.
    And vis-a-vis the research question, at least for the years 
that I was on the board, every service, every language service, 
every change in language service, every change in programming 
was heavily research-driven, that there is a first-rate 
research department within the BBG.
    Thank you.
    Mr. Yoho. Thank you.
    Go ahead.
    Mr. Wimbush. Thank you, Doctor.
    Two points that you raised. The first is I think one should 
be very cautious about using numbers as an indication of the 
success of these services. You can get 200 million or 250 
million, but if it is the wrong 200 or wrong 250 million, you 
haven't really accomplished anything.
    One of the things that U.S. international broadcasting must 
do is to develop other measures of effectiveness, as they would 
say in the military. We have to know how to measure impact----
    Mr. Yoho. Right.
    Mr. Wimbush [continuing]. Much better. And that gets back 
to Jim's point about getting more strategic in how we are 
getting there.
    As to funding, Jim is absolutely right. It is not in the 
culture of the BBG to be strategic, to make these kinds of 
decisions, but there is a huge institutional impediment. When 
you begin your budget process every year and you have got all 
of these duplicate services and you know that if you start 
putting them out of business, you are going to have all kinds 
of people running to their congressmen claiming that, you know, 
``Armenian Service Number 2 has just been put out of business'' 
or ``This is going to cause human resource problems of massive 
proportions.'' You fund them. You continue them. And that has 
got to stop.
    Mr. Yoho. It has got to stop.
    Mr. Wimbush. It has got to stop.
    Mr. Yoho. And that comes from a look from the top down----
    Mr. Wimbush. Yes.
    Mr. Yoho [continuing]. As a strong, clear mission statement 
of what we are trying to accomplish.
    Mr. Wimbush. It has got to stop.
    Mr. Yoho. I appreciate your time.
    Madam Chair, thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    And now we will turn to another doctor, Dr. Bera. Doctor, 
Doctor, Doctor, Doctor.
    Mr. Bera. Thank you, Madam Chairwoman. It is a fascinating 
hearing here.
    Information absolutely is critical to getting our message 
out. It is absolutely critical to our diplomatic strategy, to 
our security strategy, and so forth.
    And I think the BBG's mission is pretty well stated. It is 
to promote freedom and democracy. Now, the BBG is not running a 
commercial enterprise. It is not about increasing your target 
audience. It is about getting a message out. And that is 
mission-critical, yes.
    I have heard folks talk about effective boards, but I have 
not heard anyone say that the BBG is functioning is an 
effective manner today. And if we don't get that component 
together where we have a streamlined decision-making process 
where we are making strategic decisions in conjunction with our 
diplomatic corps, in conjunction with our DoD, in conjunction 
with our security apparatus, I think we are missing a key 
element. You know, let me cite a specific example.
    The chairwoman, myself, and a few others were in 
Afghanistan recently visiting with our troops. The primary 
mechanism of getting information to the population in 
Afghanistan is radio. If we are not strategically communicating 
a message to these populations, we are going to be in a very 
difficult position to hold on to our gains.
    I would challenge that it is critical to our mission in a 
very strategic way where State, where DoD, where our security 
apparatus are all working in conjunction to put a message out 
there to the public. It is a very effective way. We have seen 
how information has been used against us by jihadists, by al-
Qaeda and others.
    My question is, you know, we are all in agreement that it 
is not functioning in an effective way today. We need to move 
forward in this because if we lose the information battle, it 
is going to be very difficult.
    Concrete suggestions on what the makeup and mission of the 
board should be? Should we keep the board in its current 
structure? And, you know, again, concrete recommendations to 
this body on what we should do to create a much more effective 
organization? Mr. Glassman?
    Mr. Glassman. Well, I think, first of all, that a board of 
part-time advisers is a good idea anyway with whatever 
structure you want to have, but there needs to be somebody who 
is a leader, who is a CEO.
    Now, the real question I think is, where do you put this 
agency? And we were just talking about that.
    If you don't mind, I do want to comment on this, the 
strategic matter that you had talked about. One of the very 
first things that happened to me when I was at the BBG was the 
head of counter-terrorism at the State Department took me aside 
and said, ``You know, we would really like you to broadcast 2 
hours to Somalia, instead of one.''
    And I said, ``Well, it sounds like a good idea to me, but I 
have got to convince the board. Do you have the money?'' They 
did have the money.
    The point is I could have said to him, ``No. We are not 
going to do that. We are going to spend the money on Greece'' 
or ``We are going to spend the money'' somewhere else.
    It was a purely voluntary participation in U.S. strategy. 
That is what needs to end.
    Mr. Bera. Therein lies the challenge.
    Mr. Wimbush. Mr. Bera, a couple of things. I agree with 
Jeff. I am not a fan of messaging per se. I am a fan of 
strategic focus, which is where Jim has put the emphasis.
    When you run one of these stations, as I have done, you 
learn very quickly that there are a lot of ways to get the 
right message or messages into a target area.
    During the Cold War, the Radio Liberty Russian service, 
which was, arguably, one of the finest services ever created, 
had as one of its most potent programs film reviews that made 
all of the points that one wanted to get into this audience. So 
I think that where you are located is important and how you 
connect it to the foreign policy apparatus is important. There 
has to be congressional input, a lot of it, but I don't think 
it should go much beyond. I think it should be broad 
recommendations.
    Our general foreign policy goals this year are to look at 
the following area. Please put special emphasis on those.
    And then you have to do a lot of experimenting. There is no 
bureau anyplace in the United States that can write you 
messages that will work. It just won't work.
    Mr. Hirschberg. Actually, I share a lot of what both of 
these gentlemen have said. Radio Free Europe, Radio Liberty, 
for instance, and Russia after Dave Brubeck went there had a 
jazz program that was the most popular program in the Soviet 
Union at the time and Russia afterwards.
    You can put a CEO of U.S. international broadcasting into 
this mix. I mean, that is what the board wants. That is what 
the administration has said that they support. And I can 
support that as long as there is a BBG still in place of 
private citizens with diverse backgrounds that can act as a 
firewall and provide some strategic overall help to the board. 
And I think with those things on the back office stuff, you can 
offer consolidation. All right?
    But I don't think it makes a whole lot of difference in 
some ways what the structure is, whether or not it is an 
independent agency, whether or not it is something else, as 
long as it retains its credibility.
    Mr. Bera. Would I be accurate if I said there is unanimous 
sentiment here that having a strong CEO that is managing the 
organization makes sense? Is that correct?
    Mr. Wimbush. It makes a great deal of sense. I mean, CEO is 
one way to look at it. I would say professional management over 
the entire corpus of international broadcasting. There is 
nothing wrong with a board of advisers of some kind. I have no 
problem with that, but there needs to be a Berlin Wall put 
between them and the management of these enterprises.
    Mr. Bera. Having a manager that can interact with State, 
that can interact with DoD, that can interact with Security, 
there is unanimous consent that that with a board whose 
function is an oversight role, is that a reasonable structure?
    Mr. Hirschberg. It is a reasonable structure, yes.
    Mr. Bera. Great. You know what? I think this is an 
incredibly important topic for us to continue to discuss to win 
the information war, to win the--you know, we know based on our 
values as Americans, our values of freedom and democracy. When 
we get those values out there, they win. But if we are not 
effectively getting that message out there, then we face severe 
risks in losing to messages that want to harm us.
    So thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Bera.
    Mr. Deutch, my Florida colleague, is recognized.
    Mr. Deutch. Thank you, Madam Chair. To you and the ranking 
member, thanks for holding today's hearing. And I understand 
that you touched on this issue briefly, but I would like to 
just pursue a little further the role that we play in Iran. And 
while I believe public broadcasting is vitally important around 
the world, it is especially true there. We have got few 
opportunities to speak directly to the people to present 
accurate information about their government's choices and about 
American values.
    And our primary tool for reaching out to the Iranian people 
is Voice of America Persian News Network. PNN has long been 
considered an ineffective diplomatic tool, however, plagued by 
poor programming, low-quality production, and mismanagement. It 
is tremendously unfortunate in a country where an estimated 90 
percent of the populous gets their news from TV. The U.S. via 
the Persian News Network is missing an opportunity to have an 
influential role in Iran too often by presenting 
unprofessional, low-quality newscasts, often with an incoherent 
message.
    Less than 2 weeks ago, the Iranian people went to the polls 
in historic numbers. BBC Persian provided 24/7 coverage of the 
elections. Yet, PNN chose to broadcast a music program and a 
show about historical maps, instead of continued election news. 
Unfortunately, none of these criticisms are new. As Iran 
remains a top foreign policy concern, I am seriously concerned 
that we are missing a vital opportunity to reach an estimated 
25-30 million people in Iran.
    So my question is this. Why is the production quality and 
editorial content of PNN so lacking? What barriers are there 
that are preventing the hiring and training of top journalists?
    And then I will just also ask, in a hearing before the 
Middle East Subcommittee, Karim Sadjadpour of the Carnegie 
Endowment suggested that PNN become a public-private 
partnership. This was alluded to earlier in the hearing. If you 
could elaborate about your thoughts on that and help us 
understand what can be done to make this a more effective 
diplomatic tool?
    Mr. Wimbush. Thank you. Thank you, Mr. Deutch.
    I agree with your assessment. I have not looked closely at 
PNN for about 6 months or so, but every characterization that 
you just made I would agree with.
    PNN is a real tough nut to crack. It wasn't put together 
well in the beginning. It was rushed. It went from about an 
hour and a half of programming to 6 hours over a year period. I 
can't think of any commercial station that could do that.
    I did a very thorough, I think a very thorough, study of 
PNN when I joined the board in 2010 at the request of Senator 
Coburn. I would be happy to share that with you. It addresses 
all of the questions you have just raised. But let me address 
one of the possible solutions for you.
    PNN is unlikely to be fixed because the issues are largely 
connected to personnel. It is unlikely to be fixed as long as 
it remains within the Voice of America. If you want a solution 
to PNN, take it out of the Voice of America, like you did the 
Iraq broadcasting when you created the Middle East Broadcast 
Network, and attach PNN to Radio Free Europe, Radio Liberty, 
where it will be with its sister station: Farda.
    The entire legal regime that affects the management of 
personnel will change. And you will see, my guess is, something 
happen fairly quickly.
    Mr. Deutch. I would be happy to look at the report, but if 
you could just give me the upshot of the conclusion? And I 
understand the suggestions to do what you just described, but 
what is it when you say that it is mostly personnel? So what 
does that mean? What needs to happen for that to change? Who 
makes the decisions to put programming on about historic maps 
on a day, on an election day, with very significant 
implications for the entire country and the world?
    Mr. Wimbush. Those decisions are taken by the chief editor 
of the Persian News Network. And I don't know who that is these 
days. I mean, the stories like that are just legendary. And PNN 
doesn't seem to overcome them. I could tell you a bunch of them 
myself, but I won't waste your time with them.
    Presumably a chief editor, a head of service is making 
those decisions.
    Mr. Deutch. Do we have these problems anywhere in the world 
to this extent?
    Mr. Wimbush. I would say from my experience--and, look, 
these are media organizations. So, every now and then, there is 
going to be a slip-up. And there is in almost every one of the 
services at one point or another. The big services, the most 
high-profile services, are the ones that get the attention.
    And we all wring our hands, and we say, ``My God. Why are 
we doing this so badly?'' The reality is, in most cases, we do 
it really well. We are really good at this. But there are going 
to be slip-ups. I can't think in my experience of any component 
of U.S. international broadcasting that has been so 
consistently below the curve as PNN.
    Mr. Glassman. Mr. Deutch, I think your question reflects 
some of what I have been trying to say about mission and 
strategy. So imagine if the mission were clarified for the BBG. 
And, you know, forget about a restructuring, but if there were 
restructuring, it would be even easier.
    But there is an election coming up in Iran. The National 
Security Adviser or the Secretary of State or both of them 
bring the CEO of the BBG into the White House and they say, 
``Hey, this is really important. We would like you to direct 
these resources at this issue.'' That doesn't happen now, and, 
in fact, it can't happen now in any way where the BBG actually 
has to take notice of that.
    Mr. Deutch. Well, if I can just ask, is the mission so 
unclear, is it so muddled that it would be impossible for the 
editors, for the people who run the station to know that on an 
election day when the entire world is focusing on your country, 
that the news network might actually cover the news taking 
place in that country? And if so, how do we fix that? How do we 
clarify the mission? Who needs to do it? Who needs to be told? 
What has to happen so that they actually behave like a news 
network so that the Iranian people can get clear, real news 
from this outlet?
    Mr. Glassman. I think the clarification of mission has to 
be done by the U.S. Congress. There is no doubt about that. 
There are personnel problems within PNN. I have been out of it 
now for 4 years. So I can't really talk to it as well as my 
colleague here. But, you know, there is no doubt that that is 
part of the problem. I am trying to say that there is a bigger 
problem here, which is that there would be a lack of 
responsiveness on the part of the BBG and PNN to those 
directives because that is not what they do. They don't want to 
be told by somebody that ``This is your role in achieving a 
national security end. You are supposed to do this, guys. Do 
it.'' That is not the way it works now.
    Mr. Deutch. Just the last question, Madam Chair. What 
percentage of their funding comes from the United States 
Government?
    Mr. Glassman. PNN?
    Mr. Deutch. Yes.
    Mr. Glassman. All of it.
    Mr. Wimbush. All of it.
    Mr. Deutch. Okay. Thanks. I yield back.
    Ms. Ros-Lehtinen. Thank you so much. We thank our witnesses 
for this timely hearing. And I again remind our witnesses, our 
audience, and members that the mission of the Broadcasting 
Board of Governors is ``to inform, engage, and connect people 
around the world in support of freedom and democracy.'' This is 
broadcast for freedom and democracy. If you think that this is 
an impartial broadcasting, then you are not fulfilling your 
mission because you are supposed to stand for freedom and 
democracy. That is a direction. That is what the BBG is 
supposed to do. We don't have to change the mission. We have to 
change the folks who are in charge of the programming who don't 
have any idea what their mission is. So this is an important 
mission. It is of great interest to this committee. Support for 
freedom and democracy, amen.
    You have given us a lot of information for us to move 
forward. And this hearing is now adjourned.
    [Whereupon, at 11:44 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Register><pound><variable><star><box> 
                     <F-dash><func.-of><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Register><pound><variable><star><box> 
                     <F-dash><func.-of><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
